<html>
<title> - OVERSIGHT HEARING: LAW ENFORCEMENT AND TERRORISM</title>
<body><pre>[Senate Hearing 108-916]
[From the U.S. Government Printing Office]



                                                      S. Hrg. 108-916
 
            OVERSIGHT HEARING: LAW ENFORCEMENT AND TERRORISM

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2003

                               __________

                          Serial No. J-108-27

                               __________

         Printed for the use of the Committee on the Judiciary




                     U.S. GOVERNMENT PRINTING OFFICE

91-565 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    18
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.    10
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
    prepared statement...........................................   178
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................   188
Leahy, Patrick J., a U.S. Senator from the State of Vermont......     9
    prepared statement...........................................   192

                               WITNESSES

Hutchinson, Asa, Under Secretary for Border and Transportation 
  Security, Department of Homeland Security, Washington, D.C.....     6
Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C..........     3

                         QUESTIONS AND ANSWERS

Responses of Asa Hutchinson to questions submitted by Senators 
  Leahy, Grassley, and Durbin....................................    29
Responses of Robert S. Mueller III to questions submitted by 
  Senators Hatch, Grassley, Leahy, and Durbin....................    74

                       SUBMISSIONS FOR THE RECORD

Hutchinson, Asa, Under Secretary for Border and Transportation 
  Security, Department of Homeland Security, Washington, D.C., 
  statement......................................................   180
Migration Policy Institute, Muzaffar A. Chishti, Doris Meissner, 
  Demetrios G. Papademetriou, Jay Peterzell, Michael J. Wishnie, 
  and Stephen W. Yale-Loehr, Washington, D.C., report (excerpts).   195
Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C., 
  statement......................................................   216


            OVERSIGHT HEARING: LAW ENFORCEMENT AND TERRORISM

                              ----------                              


                        WEDNESDAY, JULY 23, 2003

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:45 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Orrin G. Hatch, 
Chairman of the Committee, presiding.
    Present: Senators Hatch, Grassley, Kyl, DeWine, Sessions, 
Craig, Leahy, and Feingold.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. I apologize to the two witnesses who are 
appearing before us that we have had to delay their testimony 
this long, and I understand, Mr. Director, you have to be 
through by 1:30.
    Director Mueller. Yes.
    Chairman Hatch. So will do our best to try and move this 
along. We do have a couple of votes at 12 o'clock, so we will 
move along up through then, and we are going to try to keep 
going. Senator Grassley is going to run over and vote, and I 
will stay here as long as I can, and then he will come back to 
keep the Committee going so that we will not waste any time.
    We are trying to examine the recent efforts by the Federal 
Bureau of Investigation and the Department of Homeland Security 
to combat the increasing threat of terrorism. As I have stated 
before, I am committed to conducting the meaningful oversight 
of the FBI and the Department of Homeland Security to ensure 
that as we fight the war against terrorism, we achieve maximum 
security without compromising the freedoms and liberties we 
cherish in this great country.
    As we focus on the FBI's and the Department of Homeland 
Security's recent efforts to prevent and deter future terrorist 
attacks against our country, it is important that we hear from 
these two distinguished witnesses who are here before us today. 
It is indeed an honor to have before the Committee Robert 
Mueller, the FBI Director, and Asa Hutchinson, Under Secretary 
for Border and Transportation Security at the Department of 
Homeland Security. I look forward and we all look forward to 
hearing from both of you on your continuing efforts and 
commitment to winning the war against terrorism.
    Now, the challenges that we face in this war continue to be 
unprecedented. We fight a fanatical enemy, dedicated to the 
destruction--at all costs--of America. When Director Mueller 
took over the FBI days after the 9/11 attacks, he faced 
extraordinary challenges. He assumed responsibility for a law 
enforcement agency that had suffered from antiquated 
information technology and inadequate intelligence systems. 
Following, September 11, Director Mueller acted quickly to 
refocus the FBI, to reallocate its resources, to improve its 
internal information systems, and to transform its central 
mission from reactive crime-fighting to proactive terrorist 
protection and prevention. Congress recognized the enormity of 
this task and provided in the PATRIOT Act a set of new tools 
that has enabled the FBI to complete this transformation.
    It is apparent from news reports and recent independent 
reviews, such as those conducted by the General Accounting 
Office and the National Academy of Public Administration's 
Academy Panel on FBI Reorganization, that the FBI has made 
great progress in its role as the lead terrorist prevention 
agency. By using many of the new tools provided in the PATRIOT 
Act, and by increasing information sharing, the FBI, with the 
assistance of other Federal, State, and local law enforcement 
and intelligence agencies, as well as our international 
partners, has demonstrated a number of successes in capturing 
and prosecuting terrorists. Under Director Mueller's able 
leadership, the FBI has significantly upgraded its information 
technology systems, has revised its FISA application and review 
procedures, and implemented a new infrastructure that will 
maximize the gathering, analysis, and dissemination of critical 
intelligence information among law enforcement and intelligence 
agencies. While must has been accomplished, even more remains 
to be done.
    Equally impressive has been the creation and operation of 
the new Department of Homeland Security, which required the 
consolidation of over 21 separate agencies and the merging of 
nearly 180,000 employees into a single, unified agency. The 
Homeland Security Act placed with Secretary Hutchinson's 
jurisdiction the primary responsibility for securing our 
Nation's borders from terrorists who seek to enter and attack 
our country. In short order, Secretary Hutchinson dedicated 
himself to implementing new systems and policies designed to 
prevent the entry of terrorists and the instruments of 
terrorism, without disrupting the efficient flow of lawful 
traffic and commerce at our borders. Now, I look forward to 
working with you, Secretary Hutchinson, as you implement 
programs to accomplish these goals, such as the new US-VISIT 
program.
    Now, I want to mention one other issue that I expect we 
will address today in follow-up to the Committee's June 25th 
hearing on the Department of Justice's Inspector General's 
report on the treatment of the 9/11 detainees. The June 25th 
hearing was a fair and objective hearing. It is clear that the 
Government faced unprecedented challenges in responding to the 
9/11 attacks. Dedicated public servants worked around the clock 
to investigate the attacks, identify and locate terrorist cells 
within our country, and secure our borders from further 
attacks. But having said that, it is also apparent from the 
IG's report that there are valuable lessons to be learned from 
our response to the 9/11 attacks.
    I look forward to hearing from each of you today about the 
reforms you are implementing and your efforts to protect our 
country from future terrorist attacks.
    We will reserve the time for Senator Leahy, should he 
attend and come, so that he can interrupt at any time and make 
his statement.
    We will turn to you first, Director Mueller, and then to 
Secretary Hutchinson.

STATEMENT OF ROBERT S. MUELLER III, DIRECTOR, FEDERAL BUREAU OF 
     INVESTIGATION, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Director Mueller. Thank you, and good morning, Mr. Chairman 
and other members of the Committee. I am pleased to be here to 
update you on the issues we discussed during my most recent 
appearance on March 4th, and also to assure you that the FBI 
has been working hard to protect the American people from 
another terrorist attack.
    We have continued to make significant progress in our 
reorganization and in our ongoing efforts to improve our 
collection and use of intelligence, as well as to our 
commitment to demonstrating our respect for constitutional 
liberties in all our investigations and our programs. I want to 
thank you for your continued commitment and interest in 
ensuring the success of the FBI. The men and the women of the 
FBI appreciate that support and demonstrate daily their 
determination to fulfill the great responsibility that you and 
the public have entrusted to them.
    Even in the relatively short period of time since I last 
appeared before this Committee in March, we have continued to 
progress in improving and reorganizing the FBI so that we 
function more efficiently and are able to respond more rapidly 
to world events and changes in technology, both the technology 
available to us as well as the technology that is also 
available to criminals who threaten our economic interests and 
our infrastructure.
    Now, among the most significant challenges has been our 
commitment to use the authorities provided by the PATRIOT Act 
to protect the American people while at the same time 
continuing our commitment to honoring constitutional 
protections, including First Amendment freedoms of speech, 
religion, and assembly.
    Let me just start at the outset and make a few comments, if 
I could, about the PATRIOT Act. Our efforts to combat terrorism 
have been greatly aided by the provisions of that statute, and 
our success in preventing another catastrophic attack on the 
United States homeland would certainly have been much more 
difficult, if not impossible, without several of the provisions 
of that Act. It has already proved extraordinarily beneficial 
in the war on terrorism, and our opportunity to use it will 
only increase.
    First and foremost, the PATRIOT Act has produced greater 
collection and sharing of information within the law 
enforcement and intelligence communities.
    As you know, prior to the Act, the Foreign Intelligence 
Surveillance Act--commonly known as FISA--was interpreted as 
requiring that FISA surveillance was permitted only when the 
primary purpose of that surveillance was to obtain foreign 
intelligence information. But in order to ensure that the 
primary purpose of that surveillance did not shift during the 
investigation, criminal investigators were essentially walled 
off from intelligence investigations. What is called a 
metaphorical wall was erected between intelligence and law 
enforcement out of concern that sharing of information between 
intelligence and criminal investigators would become involved 
in developing evidence for a criminal case.
    Section 218 of the PATRIOT Act displaced the primary 
purpose standard, permitting the use of FISA when a significant 
purpose of the surveillance was to obtain foreign intelligence 
information. In addition, Section 504(a) clarified that 
coordination between intelligence and criminal personnel was 
not grounds for denial of a FISA application. These changes, 
when combined with the 2002 opinion from the FISA Court 
interpreting the new language, effectively dismantled the wall 
between law enforcement and intelligence. The resulting free 
flow of information and coordination between law enforcement 
and intelligence has expanded our ability to utilize all 
appropriate--and I say appropriate--resources to prevent 
terrorism.
    As a result, although the legal standard for obtaining a 
FISA warrant is still probable cause to believe that the target 
is a foreign power or an agent of a foreign power, we now have 
more opportunities to employ FISA as well as the opportunity 
for greater dissemination of the information that flows from 
that form of surveillance.
    I should add that information is flowing more freely in 
both directions. Section 203 of the PATRIOT Act modified the 
rules governing the handling of information obtained through 
the grand jury or from Title III surveillance, so that we may 
now disclose without delay any foreign intelligence information 
obtained from these criminal investigative tools to the 
Director of Central Intelligence and to our friends at Homeland 
Security. In fact, the statute mandates these disclosures.
    In addition, the PATRIOT Act gave Federal judges the 
authority to issue search warrants that are valid nationwide in 
terrorism investigations. In the past, a court could only issue 
a search warrant for premises within the same judicial 
district. But our investigations of terrorist networks often 
span a number of districts, and this change, which is limited 
to terrorism cases, has eliminated unnecessary delays and 
burdens associated with having to present warrants to different 
judges around the country.
    Title III of the Act, known as the International Money 
Laundering Anti-Terrorist Financing Act of 2001, has armed us 
with a number of new weapons in our efforts to identify and 
track the financial structures supporting terrorist groups. 
Past terrorist financing methods have included the use of 
informal systems for transferring funds in a manner that is 
difficult to detect and trace. The effectiveness of such 
methods was significantly undercut and eroded by the provisions 
of the PATRIOT Act.
    Finally, there are other provisions of the Act that have 
considerably aided our efforts to address the terrorist threat 
including: strengthening the existing ban on providing material 
support to terrorists and terrorist organizations; the 
authority to seize terrorist assets; and the power to seize 
money subject to forfeiture in a foreign bank account by 
authorizing the seizure of a foreign bank's funds held in a 
United States correspondent account.
    Mr. Chairman, it is important for the Committee and the 
American people to know that the FBI is using the PATRIOT Act 
authorities in a responsible manner, and we are making every 
effort to effectively balance our obligation to protect 
Americans from terrorism with our obligation to protect their 
civil liberties.
    I want to spend just a moment on what we have done to 
address not only intelligence collection but analysis within 
the Bureau.
    The PATRIOT Act created new opportunities for us to 
strengthen and expand our longstanding intelligence capability 
and to allow the sharing of that intelligence broadly within 
the FBI, but also within our intelligence and law enforcement 
community partners. While intelligence has always been a core 
competency of the FBI and has been organic to the FBI's 
investigative mission, the intelligence cycle of requirements, 
collection, analysis, dissemination, and feedback has not 
always been carried across the FBI. The PATRIOT Act has allowed 
us to ensure that the aggregate intelligence gleaned from our 
cases and our investigations is analyzed for trends and 
connections that might not be visible to us from a review of 
individual cases. And this threat-based look at FBI 
intelligence has allowed us to uncover terrorist networks and 
connections within the United States that otherwise might not 
have been found.
    Similarly, the PATRIOT Act has allowed the FBI and our 
intelligence and law enforcement community partners to exchange 
information that previously was not shared. The wide 
availability of threat information from all sources has been a 
key to our success in using intelligence to drive our 
investigations toward prevention as well as and in addition to 
prosecution.
    To properly manage this expanded intelligence capability, 
in January of this year we elevated intelligence to a program 
status at the FBI, and to that end, I have proposed to Congress 
the creation of an Executive Assistant Director for 
Intelligence position and have selected that individual and 
have undertaken a program to develop and implement concepts of 
operations for key intelligence functions.
    Finally, let me spend a moment talking to you, Mr. 
Chairman, and the Committee on our progress in upgrading our 
information technology capabilities.
    Since the 9/11 tragedy, the FBI has had a number of 
information technology successes. The most significant of those 
has been the upgrade of our data communications infrastructure. 
As part of our Trilogy program, we put in worldwide high-speed 
data communications networks which became operational on March 
28, 2003. This network is a significant increase in our 
capability to share all kinds of data, to include video and 
images, among all of our FBI offices throughout the world. This 
network will be the backbone for the implementation of most of 
our information technology systems for years to come.
    As part of our Trilogy upgrade, Bureau personnel throughout 
the world are having their desktop computers upgraded to state 
of the art. This upgrade is complete for all field locations 
and is currently ongoing at headquarters. Additional upgrades, 
primarily in software, are targeted for completion in November 
and December of this year, and all these upgrades are necessary 
to implement what we call the Virtual Case File, which is 
scheduled to come online in December 2003. This Virtual Case 
File is the result of a re-engineering of workflow processes 
and combines several existing databases into one. Previous 
automation efforts in the FBI basically automated paper 
process, retaining all of the steps in these processes. The 
Virtual Case File development team took a hard look at these 
processes and, with the involvement of agents and support 
personnel from the field, has re-engineered them to obtain 
significant efficiencies from our systems.
    In closing, Mr. Chairman, I would like to thank this 
Committee for its continued leadership and support. The FBI's 
capabilities are improving daily, in large part due to that 
support, and we will continue on this positive path with the 
benefit of your continued interest and leadership.
    I am happy to answer any questions you might have.
    [The prepared statement of Director Mueller appears as a 
submission for the record.]
    Chairman Hatch. Well, thank you, Mr. Director.
    We will turn to Secretary Hutchinson now.

  STATEMENT OF ASA HUTCHINSON, UNDER SECRETARY FOR BORDER AND 
   TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Secretary Hutchinson. Thank you, Chairman Hatch, Senator 
Leahy, distinguished members of the Committee. Thank you for 
inviting me to testify before you today. It is my privilege to 
be here and also to appear with my friend and colleague, Bob 
Mueller, who is doing an outstanding job in bringing innovation 
and leadership to the FBI.
    I wanted to respond to two particular areas today in my 
oral testimony and, of course, will submit my written 
testimony.
    First, I wanted to outline and summarize some of the 
various initiatives that we have implemented at the Department 
of Homeland Security to enhance security at our border ports of 
entry and through our transportation system.
    Secondly, I wanted to make some comments on the IG report 
that is part of the subject of this hearing today.
    If you look at what we have done since the Department was 
created, we have been able to expand the Container Security 
Initiative into phase two, which broadens the information that 
we get in advance of cargo coming to the United States through 
our sea carriers. We have deployed over 300 new Border Patrol 
agents to the Northern border. We have expanded the presence of 
Homeland Security officials in trouble spots on the Southwest 
border. We have worked to increase security through the 
implementation and development of the US-VISIT system that will 
allow us to fulfill the Congressional mandate for knowing 
visitors that come and go from the United States and who 
overstays their visas. We have implemented Operation Liberty 
Shield during the Iraq confrontation. We have implemented 
Operation Cornerstone that enhances our capability in financial 
investigations and coordination with the FBI and their role. We 
have developed Operation Predator, which really combines the 
resources of legacy Customs agents and immigration agents to 
enhance their capability.
    We have increased our communications with the Department of 
State in partnership with them in developing the protocols at 
our consular offices, increasing the interviews with them, 
which enhances our security. Through Customs and Border 
Protection, we have developed rules in advanced cargo 
information in different modes of transportation that enhances 
our capability to assure cargo that comes into the United 
States is free of danger. Finally, we have increased the 
deployment of non-intrusive inspection technology at our ports 
of entry.
    I believe that all of these are consistent with 
Congressional mandates to the Department and particularly in my 
arena of border and transportation security.
    As we increase security, we must also keep clearly in mind 
that we must implement these security measures in ways that 
respect and enhance our civil rights and civil liberties. And 
through communication with the American people and those 
communities impacted by the September 11 detentions, we will 
strive to protect America by taking the steps that will be 
effective in diminishing the security threats that we face 
without sacrificing core American principles.
    That leads me to comment on the Inspector General's report. 
I would note that the Department of Homeland Security took 
responsibility for 21 agencies in March of this year, and we 
did not exist in September of 2001. But, nevertheless, the 
Department of Justice IG report is important to our work, and 
we take the findings and the recommendations very seriously.
    As Under Secretary for Border and Transportation Security, 
I have responsibility for the operations of several agencies, 
including two most applicable to the IG's report: one, the 
Bureau of Customs and Border Protection, the other the Bureau 
of Immigration and Customs Enforcement, or ICE. Within ICE, the 
focus is on our criminal investigations and enforcement at our 
Nation's borders and immigration, customs laws. Customs and 
Border Protection secures our borders and facilitates the 
legitimate movement of cargo. These two organizations perform 
many of the functions of the former INS.
    It is our intention through this streamlining of 
communications between the agencies and the senior leadership 
to address one of the Inspector General's main recommendations. 
I am pleased to report that the integration of the former 
customs and immigration personnel is progressing rapidly, and 
the increased capability makes our Nation safer.
    The IG report examines the immediate actions of the FBI and 
INS and the arrest and detention of 762 individuals. Let me 
comment specifically on some of the recommendations.
    The IG recommends that new steps be taken to ensure that, 
if another emergency such as September 11 happens again, a 
clear and effective process be in a place to guide Homeland 
Security and the Department of Justice through the crisis. We 
completely concur with this recommendation. We agree, for 
example, that there should be clear post-arrest communication 
between the FBI and Homeland Security regarding aliens that 
have a likely association with terrorism, regarding whether an 
alien detainee be labeled as a person of interest to an 
investigation, and regarding when an alien can be removed from 
the list of those that are of interest. We will establish with 
the Justice Department an effective crisis management process.
    I want to assure this Committee and the country that, 
should we ever find ourselves in another national emergency 
involving terrorism, we will have mechanisms in place to work 
cooperatively with the FBI and to ensure that individuals 
detained pursuant to our laws are treated fairly. Although we 
will work cooperatively, it is imperative that the Department 
of Homeland Security independently review the underlying facts 
and make assessments to both the necessity for detention and 
the appropriate detention facility in every case. This will 
also ensure that the Department of Homeland Security can make 
the proper recommendations to the court on bond, detention, and 
removal. This independent assessment is essential because it is 
DHS lawyers who are officers of the court and must have 
confidence in the representations made to the court.
    The IG asserts in its report that many detainees were held 
for a lengthy period of time without having charges filed 
against them. We agree that we need to put in place 
comprehensive instructions to clarify and streamline the 
process for serving charges--what are called ``notices to 
appear'' in the immigration context--on alien detainees.
    The IG concluded that the conditions some alien detainees 
faced were unsatisfactory. In response to that, we have 
implemented specific guidelines to our detention facilities. I 
am pleased to report that last week ICE issued a new detention 
standard that addresses the issue of ICE visitation of aliens 
in detention at Homeland Security-controlled facilities as well 
as facilities controlled by other entities. Finally, the 
standards include specific time frames during which officers 
must respond to certain enumerated detainees' requests. We have 
included an operational order emphasizing the need for our 
employees to follow all applicable policies, procedures, and 
regulations governing detention.
    I also want to assure the Committee that ICE's Detention 
and Removal Office has in place a set of standards that set a 
high standard with regard to immigration detention facilities. 
For the past 2 years, we have trained over 350 agents to serve 
as reviewers of immigration detention facilities. I am going to 
revisit that program to ensure that it is sufficiently strong 
to meet our objectives.
    The IG concluded that the Department needs to ensure that 
immigration officials in the field consistently conduct post-
order custody reviews for all detainees who remain in custody 
after the typical 90-day removal period. We are making sure 
that we can complete those post-order custody reviews in a 
timely fashion.
    Although we have taken some steps to address the concerns 
identified by the Inspector General, we clearly need to 
accomplish much more. With Director Mueller, we will establish 
mechanisms to appropriately process aliens who may have a 
connection to terrorism in the event of another national 
emergency that involves alien detainees. I would be pleased to 
present further testimony on this issue to the Committee as the 
Committee directs, and I am looking forward to the questions 
that you might pose and answering any questions that the 
Committee deems would be helpful in your oversight work.
    Thank you very much.
    [The prepared statement of Mr. Hutchinson appears as a 
submission for the record.]
    Chairman Hatch. Well, thank you so much.
    We do have two votes going on right now, and I am going to 
try and utilize as much time as we can. Senator Grassley is 
going to come back, but I don't know that he will come back 
between the two votes.
    Does anybody know how much time we have left on the first 
one?
    Okay. Well, let's ask a few questions, and then we will 
probably have to recess until we can get back after the second 
vote.
    Oh, excuse me. The distinguished Ranking Member has an 
opening statement I would love him to give.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. We have been rapidly changing the rules 
around here. I didn't know whether I would get a chance. But I 
do welcome you both here. All of the employees of the FBI and 
the Department of Homeland Security work very hard to keep us 
safe, and I want to say through you to them that you have 
certainly my deep gratitude and support, as both of you do. 
Sometimes we can be contentious, but I believe that is 
something that we can be unified on.
    I am sorry that the way the discussion has been, you are 
going to have very little time to answer questions because when 
we submit them for the record, it is not always easy to get 
answers. These are the some of the answers that have been 
received by the Department in the last week. On those rare 
occasions that you actually do get a chance to come up here and 
testify before us, people look back and find all the questions 
that have been asked before. These were from a year ago. 
Actually, some of these are from a year or so ago, and so we 
ask you questions, and a year later we get the answers.
    I don't think that helps with oversight. At our last 
Committee hearing back on March 4th, the Chairman said he would 
ask you to testify regarding the FBI's use of its authorities 
under the Foreign Intelligence Surveillance Act, FISA. Five 
months later, we have yet to have that hearing. I would hope 
that we might have a chance to have a real hearing on FISA, a 
time when not just the Director of the FBI, but the Attorney 
General, should have to come and answer questions. Former 
Republican leader Dick Armey and I put in specific sunset 
provisions in the PATRIOT Act so that we would encourage the 
oversight process and the answering of questions. We have not 
had a very good opportunity to do oversight. I hope that those 
who want to see the sunset provisions go away would encourage 
answers to our questions. I would say, however, that, Director 
Mueller, you have always been available when I have called you 
on something, and certainly, Secretary Hutchinson, you have 
been here many times before committees, and I applaud that.
    I am going to put a statement and some material from 
Senator Kennedy in the record and also my full statement in the 
record. I am concerned, and you have touched on this, about the 
reports that Muslim and Arab immigrants being held in civil 
violations of our immigration laws have been subjected to 
abuse. Director, I look forward to coming down--and you and I 
have discussed this before--I want to come down and see the new 
electronic abilities you have. As you know, I expressed this to 
you. Just a few days after you became Director, you had 
September 11th, and I think both you and I, and I know the 
President, were appalled at how very little ability there was 
for the Bureau to use electronic communications and computers.
    I recall saying during that time to one of the very top 
people in the Bureau about doing a Google search on some of the 
people under suspicion before September 11. The response was: 
``What is a Google search?'' A question that their 8-year-old 
neighbor could have answered. And I know you have made 
information technology one of your priorities, so I will come 
down personally to see the new system. I wonder if perhaps the 
computer problems had been addressed prior to your arrival at 
the FBI, whether things might have been different on September 
11th.
    We passed some FBI reform provisions in the Department of 
Justice authorization act. Some parts were blocked. This was 
the Leahy-Grassley FBI Reform Act of 2001. Senator Grassley and 
I have now reintroduced it, and I would hope that the 
administration would support it.
    I will put my full statement, Mr. Chairman, in the record, 
and I will come back to ask questions, and I will go and vote. 
Senator Grassley has never been shy about asking questions of 
the Department. I come along in the wake of the super tanker 
over here. But you can assume that some of his questions are 
similar to mine.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley [presiding]. Senator Hatch and I have 
arranged that I have already voted and he is going to stay over 
there and vote on this one and vote on the second vote, and 
then he will come back and I will go vote on the second vote. 
In the meantime, then, I can ask questions.
    I have a short statement. First of all, I am very glad to 
have an opportunity that the Chairman would make for us to have 
exchange in oversight with each of you. And I really feel good 
about the meeting that we had. It was kind of a private meeting 
last week, Director Mueller. I felt it was very productive, and 
I hope that the tone was right. I felt that the tone was right, 
at least on your part. And if you remember, at that meeting I 
brought up a number of examples of cultural problems within the 
FBI. These cultural problems are important because I think that 
they have some demoralizing impact upon agents, and the extent 
to which that is true, they diminish some trust that the public 
has always had in the FBI.
    Ultimately, these problems, I think, have some impact, 
negative, upon the FBI's effort to carry out the new and 
horrendous responsibilities that you have on the war on terror 
and the prevention of things. It is quite a bit different from 
what the FBI has traditionally done. FBI agents are some of the 
country's most honorable and hard-working Federal law 
enforcement people. These great men and women deserve every 
measure of protection when they try to improve the FBI by 
pointing out problems.
    I appreciate that you address retaliation head-on by 
referring allegations to the Inspector General. However, the 
FBI would be better served if retaliation were stopped in the 
first place. And I don't mean to imply that you wouldn't do 
that. You might not know of every instance. And I think that 
you have to prevent this activity, not just react to it, just 
like the FBI has to prevent terror attacks and not just 
investigate afterwards.
    You have taken some good steps to reform the FBI 
internally, and I have some questions that I will want to ask 
you that probably would not be unfamiliar to you.
    Let me make one comment before I do that. It is a follow-on 
of the statement I just made. And I know the FBI is a very, 
very big organization, and I know that you are one person in 
it. And I know, as I indicated, that you probably can't be on 
top of everything, and you are going to have somebody that is 
not doing exactly what you would like to have done. But I hope 
that some way you can take steps to get people around you that 
really have your attitude filtered down to everybody so that 
you don't have these instances where people are out of step.
    So I would like to give you three examples of cultural 
problems and ask you to address each one and do it after I 
finish. Overall, I also want to have you explain what you might 
be doing along the lines of what I just said about preventing 
instances like these happening.
    Several FBI agents testified to this Committee before your 
confirmation--now, this is before you came here, so this is 2 
years ago. Agents Roberts, Perry, and Kiernan told us about 
problems with retaliation, FBI misconduct, coverups, and the 
double standard in discipline. Agent Roberts has had a 
retaliation complaint pending with the Inspector General since 
before your tenure, and Agents Perry and Kiernan recently were 
forced to join him in alleged retaliation with the Inspector 
General.
    I believe that these are patriotic agents who just want to 
do their job, and I am troubled that your high standards didn't 
sink in with some officials in the FBI who wanted to target 
these individuals. Also, John Roberts' wife, Brenda, has 
alleged that she suffered further harassment. Direct 
retaliation is one thing, but going after someone's family is a 
very low act.
    The second point that I would make would be the FBI's 
highest-ranking Arab agent, Arab-American agent, has filed a 
discrimination lawsuit. This is Agent Basam Yousef. He was our 
first legal attache in Saudi Arabia. He was instrumental in the 
Khobar Towers bombing case, and, unfortunately, this agent 
feels that he has been subject to discrimination and that the 
FBI has missed out on his valuable skills. You have been aware 
of this case personally for some time, so why could you not act 
to fix this situation earlier?
    Then the third and last point would be in regard to a 
letter that I just recently sent you about awarding contracts 
to former officials who were involved in serious misconduct 
during their careers. And I shouldn't say it to imply that you 
awarded it. I mean to imply that they have an FBI contract. 
Because I think giving a contract to these people sends a 
terrible message to agents and the public that there are no 
consequences for wrongdoing. In fact, you might be rewarded for 
it. Charlie Matthews, who helped cover up Ruby Ridge, got a 
contract to travel to Indonesia for an FBI training session. 
The FBI also awarded a contract to a company called MPRI, where 
Joseph Wolfinger and Thomas Coyle worked. That contract is to 
do counterintelligence training. Wolfinger organized a fake 
conference in the Pottsgate scandal, and Coyle was investigated 
for Ruby Ridge and was on the Pottsgate disciplinary board 
despite a major conflict of interest.
    These people, in my judgment, are not models for FBI 
agents, so I am concerned about this, and I entered my letter 
into the Congressional Record yesterday along with a statement. 
I appreciate your hearing about these points of view, and now I 
would ask you to respond.
    Director Mueller. Well, Senator, you asked what we have 
done to tell persons within the organization that I want to 
hear about that which we need to do better, and that persons 
who do provide those differing views should not be retaliated 
against.
    Shortly after I came, I sent an e-mail to everybody that 
explicitly indicated that I would not countenance retaliation. 
I have, whenever there has been an accusation of retaliation, 
referred that to what I consider to be an independent 
investigative body, the Inspector General's office. I have 
awaited the determination of the facts because allegations can 
be made, but it is important that we determine whether there is 
substance to the allegation. I asked the Inspector General to 
do that on a number of occasions. And when I have received the 
report, I on occasion have asked for recommendations, and I 
have acted on those recommendations.
    With regard to getting the message out, I think if you went 
to any office that I have visited, you will hear that part of 
what I say to individuals in the FBI is that the good news 
reaches the top, often the bad news does not. And what I need 
to know is that which is wrong in the FBI because only by 
knowing it will I be able to fix it. That is a message I carry 
wherever I go. And what I want to hear, whether it be by e-mail 
or by message or otherwise, I want to learn what needs to be 
done to fix that which is wrong within the Bureau. Otherwise, 
it festers and it blows up down the road, and we cannot have 
that. So that is the message I carry out.
    With regard to the three particular instances that you 
mentioned, the individuals that testified before, I became 
aware of their allegations recently. I understand they went to 
the Inspector General's office. I know I have had recent 
contact with Mr. Kiernan, who made a very valuable suggestion 
with regard to our statement of values, which I took and I 
adopted. And I look forward to seeing the results of the 
investigation by the Inspector General's office of those 
concerns expressed to the Inspector General's office and will 
take what action is necessary as a result of that 
investigation, if any.
    On the second point with Mr. Basam Yousef, yes, I did hear 
about that, and I directed our EEO investigator to sit down and 
address his concerns and, indeed, to invoke the ADR process, 
alternate dispute resolution process, to get to the bottom of 
his concerns. I just heard last Friday that he had filed suit, 
but we did make efforts to address those concerns in the 
process that we have set up to have an independent body look at 
the concerns expressed and try to deal with them prior to the 
filing of the lawsuit.
    Lastly, I did receive your letter yesterday involving three 
individuals, one who recently retired from the FBI, Charles 
Matthews. Until I received the letter, I had not understood 
your concerns. During the period that he had been the special 
agent in charge in Portland, Oregon, he had done a very good 
job. But I am taking the letter and the concerns you have 
expressed, and I am looking at that contracting process.
    As to the other individuals, Mr. Coyle I don't believe I 
have met. Mr. Wolfinger I think I have met sometime in the 
past, but I have no knowledge of some of the concerns that you 
expressed in that letter, but I will follow up on it.
    Senator Grassley. Okay. I want to say to you that I think 
that those are all very, very good steps, and maybe you get 
tired of my asking to do more and do more. But I would just ask 
one additional thing, and this is not a question. It is a 
statement. If somehow you can send out another message--and 
maybe you can't send out enough messages, and maybe there is 
somebody that is never going to get the message, because every 
organization has somebody that doesn't want to listen. But that 
to all the management below you that there should not be any 
further retaliation. I am going to keep hammering on that, and 
I hope you can do that.
    Director Mueller. And I will tell you, the immediate 
management below me, we have discussions about it and assure 
that we have to send the message, each of us--not just me, each 
of us--out to the field that we want everybody to express their 
views. And we will accept those views even though we may at 
some point disagree, which can happen.
    The only other point, if I may, Senator is to say that one 
talks a great deal about the culture of the FBI, but I know you 
agree that part of the culture and the history of the FBI is 
the FBI agents' commitment to excellence, the FBI agents' 
commitment to hard work, the hours that agents and support 
staff have worked since September 11th are truly extraordinary. 
And, lastly, part of what makes the FBI agent what he or she 
is, as well as the support people, is the commitment to the 
protection of the public of the United States. And that all is 
part of what we can say is part of the FBI culture.
    Thank you, sir.
    Senator Grassley. Thank you, Mr. Mueller.
    Secretary Hutchinson--and it is difficult to have you 
before the Committee without saying, ``Asa, would you answer a 
question?''
    Secretary Hutchinson. That would be fine.
    Senator Grassley. Anyway, you obviously have a very tough 
job and a very new job in a very new Department to do it, and 
it takes an awful lot to get a new agency undergoing, I know. 
And that is, of course, securing and protecting our borders. I 
have done a lot of oversight on border security problems. I 
think I have expressed in a hearing I had before my own 
committee, the Senate Finance Committee, that I am worried 
about it. I think there is at least one area where we can help 
each other, and that is visa revocations and terrorism 
concerns.
    I requested a recent General Accounting Office report that 
found a legal loophole in the visa process. If you get to shore 
here in the United States before the State Department revokes 
your visa on terrorism grounds, you are in a sense home free.
    If that happens, your Department cannot deport a suspected 
terrorist, and obviously that doesn't make the common-sense 
test, as far as I am concerned, because if these people are a 
threat to our security and just because they got a visa to get 
here, if we had known that before they got the visa, they 
wouldn't be here in the first place. It shouldn't be difficult 
for them to leave the country.
    The loophole that I am talking about is in the wording of 
the revocation certificate. There have been two hearings on 
this, but the State Department will not budge. Now, I think 
your Department has authority over visa policy, and the State 
Department is just supposed to carry it out. So I would like to 
have you assure me today, if you are aware of this, that you 
will get the State Department moving and get the loophole 
closed. And if I can help you in that way in any way, I would 
like to be able to do it.
    First of all, I hope you agree with me and, if you agree 
with me, that you would do that.
    Secretary Hutchinson. I agree with you, and you have my 
assurance that we are going to work to fix that problem. You 
have correctly stated the issue. The State Department can 
revoke a visa on information that they have at their 
discretion. The individual is already in the country. There is 
a more difficult process for Department of Homeland Security to 
go through the process to order their removal. But it would be 
helpful to us--and we have talked to the Department of State 
about this--that the revocation include that they no longer 
have authority to stay in this country. That would assist us in 
the removal process.
    We are in communication with the Department of State. You 
are correct that under the Homeland Security Act the visa 
policy is shifting to us. We have not fully implemented that 
transfer. We are getting close to the memorandum of 
understanding with the State Department. But we are ahead of 
the game on this and are looking at it to adopt appropriate 
regulations to remedy this discrepancy.
    Senator Grassley. Can I further ask you in further 
clarification, then what you are telling me is you do agree, 
you are in the process of getting it done, there is no dispute 
over the policy, but it is just a case of working it through 
the bureaucracy? Is that right?
    Secretary Hutchinson. I was expressing my view with you, 
and Secretary Ridge, whom I have had the discussion with about 
this, and the instructions are get it fixed. The Department of 
State has, as you have indicated, appropriate concerns that 
they raise, and we are working through that. So I believe that 
we are going to be very shortly in a position to issue 
regulations on this matter. But that is what we are working on 
now, the regulations and addressing the concerns of the 
Department of State.
    But let me illustrate this further, if I might. If a visa 
is revoked in this country over someone, we take them into 
custody or we start processing them to remove them from this 
country. They can still assert asylum. They can still have 
access to the courts. But it will make it easier if we can 
cover our bases with the revocation that it removes their 
authority to stay in the United States, and that is what we are 
trying to accomplish.
    Senator Grassley. Well, I thank you very much.
    I am going to just recess. I don't think you can go. I 
think you better wait until Senator Hatch says you can go. I 
will go over and vote on the second vote. I have no more 
questions. If I knew I had this much time, I would have had a 
lot more questions for you.
    Secretary Hutchinson. Thank you, Senator.
    Director Mueller. Thank you.
    [Recess 12:34 p.m. to 12:45 p.m.]
    Chairman Hatch. If I could ask some questions now, I will 
start with you. Director Mueller, I will start with you.
    Director Mueller. Yes, sir.
    Chairman Hatch. There have been reports in the press 
concerning the soon-to-be-released Joint Intelligence 
Committee's inquiry into the events of 9/11. Some in the press 
continue to rehash old news events about alleged pre-9/11 
miscues. Now, these criticisms are not new, and they have been 
leveled over and over again, and I understand that you have 
already implemented many of the recommendations made by the 
Joint Intelligence Committee. So I want to commend you, 
Director Mueller, for your commitment, cooperation, and 
willingness to embrace these and other reforms to protect the 
safety of our people here in this country and elsewhere.
    Can you outline the Joint Intelligence Committee's 
recommendations and specifically address what steps you have 
taken or are in the process of taking to implement these 
changes? Now, if you have answered this question already, I 
would be happy to have you just summarize.
    Director Mueller. Well, I have not had an opportunity to 
address the issue, but let me just spend a couple of moments, 
if I might, saying first off that the Joint Intelligence report 
had a number of suggestions, ten specifically that were 
certainly valid and we are in the process of implementing.
    If I can just go through them briefly, the first one was to 
strengthen counterterrorism as a national program and priority 
in the FBI. Since September 11th, we have simplified our 
priorities, and the number one priority is the prevention of an 
additional terrorist attack. We have backed that up by changing 
the way we organize addressing counterterrorism and assuring 
that accountability is in one place and not spread out through 
a variety of our offices and divisions around the country and 
headquarters. It is at headquarters, and the accountability for 
that program resides with the Assistant Director for 
Counterterrorism.
    Supporting that priority, we have shifted resources to 
address counterterrorism. Prior to September 11th, we had about 
1,500, somewhat over, agents and analysts on counterterrorism. 
Hopefully by the time of the conclusion of the 2004 budget we 
will be up to almost 3,000 agents and analysts addressing 
counterterrorism.
    And, lastly, as I am sure, sir, you are aware, our program 
funding goes through particular fund programs, and we try to 
allocate our resources per those programs. But each special 
agent-in-charge understands that there should be no 
counterterrorism lead that goes unaddressed. And to the extent 
in the past that we have found that to be the case, I have 
asked the Inspection Division to take a look at a program and 
to make certain that it is addressing appropriately 
counterterrorism.
    The second recommendation was to establish and sustain 
career tracks for counterterrorism agents and analysts. With 
regard to agents, we are looking at that and hope to implement 
that as part of our re-engineering process. And with regard to 
analysts, we have established an Office of Intelligence. I 
brought over Maureen Baginski from the National Security 
Agency, one of the top career professionals there, to be the 
Executive Assistant Director, and she is in the process of 
changing the analytical structure and assuring career paths to 
the top for not only analysts but intelligence officers.
    The third recommendation was to significantly improve our 
analytical capabilities, particularly in qualifications and 
training. We established a College of Analytical Studies at 
Quantico. The curriculum was put together, and part of the 
teaching is done by our colleagues at the CIA. And we 
anticipate by the end of the year approximately 340 analysts 
will have been through that College of Analytical Studies.
    Also, in order to give the analysts access to information, 
we have put together separate databases with analytical tools 
and afforded it to analysts at the start at headquarters, but 
we hope to get that to the field in the future.
    Number four was to establish a strong reports officer 
cadre. We have established that at headquarters. We have 21 on 
board, headed by a CIA reports officer, with another 7 in 
background. And we expect to expand that capability. In the 
meantime, we put out intelligence information reports, 
intelligence articles, and every week we put out intelligence 
bulletins to State and local law enforcement. We have done a 
number of strategic analyses and a national threat assessment, 
and that is all within that cadre of reports officers and the 
extended use of those reports officers.
    We are currently training our new agents in effective use 
of the analyst and the intelligence analyst role in the Bureau. 
That is number five. The recommendation was to expand and 
sustain recruitment of agents and analysts with foreign 
language skills. We are doing that. And, in particular, when it 
comes to language specialists, we have undertaken a substantial 
program to augment our capabilities there. Whereas prior to 
September 11th we had 70 Arabic speakers, we now have 208; 24 
Farsi, we now have 61; Pashtu, 10, when we had one; and Urdu, 
we have 21, although we still need to augment our capability. 
And so I will use this opportunity: To those that have those 
skills, we still want to see you.
    Number seven is to increase efforts to penetrate terrorist 
organizations operating in the United States, and we have 
dramatically increased our source coverage throughout the 
United States. I cannot really go into detail here, but I can 
tell you that throughout the United States, special agents-in-
charge and the street agents are increasing the source 
coverage, in part with the help of those communities with whom 
we have reached out to assure that we do have the lines of 
communication and information that will let us know if somebody 
is in the community and wants to do harm to the American 
people.
    The next issue was improving our National security law 
training. Phase one of our program--we have a three-phase 
program--provides for six 4-day national security conferences, 
actually eight of them around the country. We have held six. We 
have two to go, which are attended by agents and national 
security law unit attorneys as well as our US Attorneys. We 
have a distance learning program for counterterrorism and 
counterintelligence agents. And we are going to complete, 
hopefully by this fall, 2 days of face-to-face instruction in 
each field office on national security law.
    Number nine was the maximization of our exchange of 
counterterrorism information between the FBI and CIA, as well 
as Department of Homeland Security; and, lastly, exchange of 
information with State and local law enforcement.
    As I believe you know, we have now 66 joint terrorism task 
forces, actually, one in each of our 56 field offices, with 10 
adjunct joint terrorism task forces around the country. Prior 
to 9/11, we had 912 participants. We now have in excess of 
2,700 participants in our joint terrorism task forces. We have 
a national joint terrorism task force at headquarters with 30 
agencies represented. I have established the Office of Law 
Enforcement Coordination with Louis Quijas heading it up, who 
is the former chief of High Point, North Carolina. We provide 
weekly bulletins and periodic briefings of State and local law 
enforcement, and I will say that our exchange of information 
with our other Federal agencies has been enhanced dramatically 
since September 11th, with the exchange of agents both at 
headquarters within Washington as well as in the field.
    And, lastly, solving our persistent IT problems, the 
recommendation was to solve those problems, and as you pointed 
out in your opening remarks, we are on our way to doing that. 
We have in the last few months put in in excess of 22,000 new 
desktop work stations, new printers, scanners, in excess of 
2,600 switches and routers, 622 local area networks, and our 
wide area networks went online on March 28th. And as I stated 
in my opening remarks, we expect to have the user-friendly, 
Web-based applications for the agents and support employees, to 
go online in December. With that will be the migration of much 
of our data, investigative data, to an up-to-date database 
structure which enables us--not only us but others, but 
particularly us--to use the latest analytical tools to search 
that data.
    So I believe we are on the right track. We have a ways to 
go, but thank you for the opportunity to discuss what we have 
done since September 11th.
    Chairman Hatch. Well, thank you.
    We will turn to Senator Leahy.
    Senator Leahy. You go ahead.
    Chairman Hatch. We will be happy to go to Senator Feingold 
and come back to you, Senator Leahy.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you very much, Mr. Chairman, and I 
thank the Ranking Member very much.
    Welcome, Director Mueller and Mr. Hutchinson. I first want 
to thank you, Mr. Director, for the very good meeting we had 
last week to discuss a lot of aspects of the work of the FBI, 
and I want you to know publicly as well that I have tremendous 
respect for the time and dedication and sacrifice by you and 
all the men and women at the FBI and the Department of Homeland 
Security in the fight against terrorism.
    I do appreciate that you and employees have been under 
incredible stress and demand since September 11th, and I hope 
you understand that I raise some concerns in the spirit of 
assuring the American people that their Government is doing all 
it can to protect them and to protect the Constitution.
    Mr. Hutchinson, I want to thank you, good to see you again, 
and also for your comments about the Inspector General's report 
on the September 11th detainees. I think I was the first 
Senator to raise some questions about these detainees. I was 
glad to hear that you are committed to addressing the concerns, 
and I look forward to being informed about how your Department 
will implement the IG's recommendations and take additional 
steps to prevent instances of abuse from occurring again in the 
future.
    Mr. Mueller, these questions are somewhat far afield, but I 
think that is in the nature of the fight again terrorism, so 
let me first ask you a question relating to Indonesia. Director 
Mueller, I would like to ask you about the status of the FBI 
investigation into the murder of American citizens in West 
Papua on August 31, 2002. I am concerned about the integrity of 
the investigation process, specifically whether the FBI has 
been able to conduct interviews without Indonesian military 
minders present and whether the FBI has been provided access to 
all the evidence previously requested as part of the 
investigation. I wonder if you could update us. And how would 
you characterize the cooperation that the FBI has received from 
the Indonesian Government and the Indonesian military since the 
investigation began almost a year ago?
    Director Mueller. Let me answer the question with what I 
know. I have not been briefed on this in several weeks, but I 
know that early on, the investigation was going in fits and 
starts. More recently, we have had a team over in Indonesia 
working with the Indonesians. I know part of the process while 
they were there was obtaining all of the evidence necessary to 
the investigation, and my understanding is that that evidence 
is currently being flown back to our laboratory for analysis.
    I will have to get back to you on the status of the 
interviews. I know a number of interviews had been undertaken. 
Whether they had been undertaken without having persons present 
from the military, I would have to check before I give you an 
answer. But I would be happy to get back to you on that.
    Senator Feingold. I appreciate that, and in light of what 
you said about the evidence, I will submit a question to you in 
writing because I would like to know whether there is any 
indication of tampering with any of the evidence that you have 
been able to obtain. And I assume your response anticipated 
that your analysis will determine that.
    Director Mueller. Yes.
    Senator Feingold. Now let me switch to Yemen. Director 
Mueller, as you know, in October 2000, the USS Cole was 
attacked during a stop in the harbor of Aden, Yemen, resulting 
in the deaths of 17 crew members, including one of my 
constituents, and the wounding of 39 others. Like most 
Americans, I was surprised to learn that on April 11, 2003, ten 
men, including men suspected of involvement in the Cole 
bombing, escaped from a prison in Yemen. One month later, the 
Justice Department unveiled a 51-count indictment against two 
of the escapees, Jamal al-Badawi and Fahd Al-Quso, who were 
indicted on various terrorism offenses.
    Now, Mr. Director, I am troubled that these people were 
able to escape, particularly when there was an active Federal 
investigation underway that resulted in the indictments of two 
of the escapees.
    What steps did the FBI take to get access to the suspects 
in order to question them? What steps did the FBI take to 
assist the Yemeni authorities or to encourage other U.S. 
Government agencies to assist the Yemeni authorities to prevent 
any possible escape by these suspects?
    Director Mueller. Let me answer the first question. 
Actually, I would have to get back to you on whether or not we 
questioned these individuals, and I would have to find out 
specifically whether or not we were ourselves given access to 
the individuals or whether we obtained access through the 
Yemenis. So I can't give you a specific answer on that question 
now.
    I will tell you that we were equally disturbed by the 
escape and that on two occasions I have been to Yemen. On the 
second occasion, it was post the escape, and I talked to 
President Saleh about that. He assured me that he is doing 
everything in his power to re-arrest those who got away.
    I do know that immediately following that escape, he made 
substantial changes in the hierarchy whom he held responsible 
for that escape, and generally the cooperation from the Yemeni 
authorities has been substantial since September 11th.
    Senator Feingold. I appreciate that, and I would appreciate 
any information you can get me, because I have tried every way 
I know to get an answer, and it just strikes me as mystifying 
that when we knew that Al-Qaeda operatives were in jail in 
Yemen, there is just a paucity of information about what we 
were doing to make sure they would stay there. And I can't 
figure out how that happened, so I very much would like to be 
kept informed.
    Let me thank you for responding recently to my written 
questions of June 6, 2002. Several of my questions focused on 
FBI efforts to recruit agents and translators who speak Arabic, 
Farsi, Pashtu, Urdu, and other foreign languages, and you have 
said on a number of occasions that this was a priority for the 
FBI.
    So I was surprised to learn from your written responses, 
which I received just 2 days ago, that not a single special 
agent with proficiency in Arabic, Farsi, Pashtu, or Urdu has 
been hired during the period from October 2001 to at least 
October 2002, and perhaps to date. It is unclear from your 
responses whether the figures on the number of translators and 
special agents hired are current as of some time this year or 
as of October 2002.
    So my first question is just a clarification. Do these 
actual hired numbers correspond to the period October 2001 to 
the present or to some other endpoint?
    Director Mueller. I think they must be to some other 
endpoint, and I would have to get back to you on those figures. 
I have today the figures on the language specialists, which I 
gave in my response to the Chairman's question.
    Senator Feingold. I want to be clear. I am talking here not 
about translators but agents themselves having the capacity.
    Director Mueller. Exactly. I do not have the answer on the 
number of agents. I do know we have had a number of Arab-
American agents--and it may be small. I think it is a small 
number, but I know because I have recently been at graduations 
in which we have been graduating agents with that capability. 
But I would have to get back to you on the numbers.
    I will tell you that we are doing everything we can to 
recruit in all communities around the United States. And we 
have, I think, since September 11th something like 100,000 
applications to be a special agent in the FBI, and a number of 
those, approximately half, have self-described skills in 
language or computer or otherwise.
    But we are finding that we need to more aggressively 
recruit Arab-American, Muslim American, Sikh American agents to 
assure that we have the numbers we need in the Bureau.
    Senator Feingold. Well, let me just hone this in more with 
regard specifically to the languages I mentioned rather than 
proficiency in foreign languages in general. In written 
responses, you also described the skill sets sought by the FBI 
for new special agents you planned to hire in fiscal year 2002: 
193 of these agents were to have expertise in foreign language, 
but only 3 percent of those 193 were to have expertise in 
Arabic. In other words, the FBI sought to hire no more than six 
special agents who could speak Arabic. No plans to hire agents 
with proficiency in Urdu, Farsi, and Pashtu are even mentioned. 
These low hiring numbers and goals, coupled with the 
allegations in a lawsuit recently filed by the FBI's highest-
ranking Arab-American special agent that he has been 
systematically excluded from work on terrorism investigations 
because of his ethnicity I think raise very serious concerns 
about the FBI's preparedness and ability to truly meet its 
number one priority: the prevention and disruption of terrorist 
attacks.
    The picture that emerges is the FBI is seeking to hire only 
minimal numbers of language-proficient agents who would be 
actually helpful in investigations of Al-Qaeda and other 
terrorist groups based in the Arab or Muslim world, failing to 
recruit even that minimal number of special agents it has 
identified and then, once hired, keeping them away from 
terrorism cases.
    Am in interpreting your statements and responses correctly? 
And if not, can you explain why the FBI has failed to 
aggressively hire special agents with language proficiency in 
Arabic or other specifically regional languages?
    Director Mueller. I will tell you that I would have to look 
at those answers, so I can't really opine on your 
interpretation of them.
    I will tell you that every special agent-in-charge who is 
responsible for recruiting in our communities understands the 
necessity to go out in the community and have the recruiting 
agents seek speakers of Arabic, Pashtu, Urdu, all of those 
languages. And that has been hammered home with the SACs in 
just about every meeting we have with them.
    I will have to look at the percentages and the like and 
what we had in our answers, but I can assure you that we all 
understand the necessity of having those language capabilities 
within the Bureau. And I will tell you that those agents who do 
have those language capabilities are used--I don't want to say 
``used,'' but have a special capability to represent us in a 
number of countries, to participate in investigative efforts 
with foreign counterparts, to assist in questioning of 
detainees down at Guantanamo, and everybody in the Bureau 
understands that if we could clone a number of them, we would 
be more than happy to do so.
    So I share your concern about those numbers, and we are 
moving to address that.
    Chairman Hatch. Senator, your time is--
    Senator Feingold. Could I just make one remark and then 
conclude?
    Chairman Hatch. Sure.
    Senator Feingold. I just want to be clear. You and I don't 
agree on every single aspect of all these issues, but this is 
one where we do agree.
    Director Mueller. Absolutely.
    Senator Feingold. My questions are in the spirit of wanting 
to get this done because I think it is critical to protect 
American lives, and I am sure you do as well. So I look forward 
to working cooperatively with you to help try to solve this 
problem.
    I thank the witness and I thank the Chairman.
    Chairman Hatch. Okay. We will go to the Democrat leader, 
and then I will go to the distinguished Senator from Ohio.
    Senator Leahy. I thank both you and Senator DeWine. Mr. 
Chairman, listening to Senator Feingold's questions reminds me 
that Senator Grassley and I wrote to the FBI last week. We 
asked that our staffs be permitted to interview Bassem Youssef, 
the FBI's highest-ranking Arab-American agent. He has alleged 
the Bureau has discriminated against him despite his special 
skills, unique background, fluency in Arabic, and experience in 
counterterrorism.
    I believe Senator Hatch agrees with me on this. He wrote to 
you earlier this week to join Senator Grassley and my request 
to interview Agent Youssef. Is he going to be made available to 
us?
    Director Mueller. I am not familiar with those two letters. 
I would have to look at that. I cannot see that there would 
be--well, let me just say I would have to look at the letters 
and discuss the circumstances with the Department under which 
he could be made available for you to be interviewed.
    I know before he was interviewed at some length by 
Congressman Wolf, so--
    Senator Leahy. Because Senator Grassley, Senator Hatch, and 
myself are making the request, this is not a partisan issue. We 
want to make sure we are carrying out our oversight, and I 
would hope that the three most senior members of this Committee 
might carry some weight.
    The three of us have also requested an interview with Frank 
Perry, Patrick Kiernan, and John Roberts. Will you help us 
arrange their interviews as well?
    Director Mueller. Again, I think we are in discussions with 
the Department. I have not seen those letters, but I believe 
there is some discussion with the Department of the 
circumstances under which they could be made available.
    Senator Leahy. Again, I remind you it is the three most 
senior members of the Committee who have made the request.
    Now, Congress passed by overwhelmingly bipartisan votes the 
Clean Diamonds Trade Act to reduce the flow of rough diamonds 
that we understand have been used to finance terrorist groups, 
including Al-Qaeda, that fuel the bloody civil wars in Africa. 
These activities have serious implications for our National 
security.
    I understand that the administration has until the end of 
this month to issue regulations to implement the Clean Diamonds 
Trade Act and come into compliance with the so-called Kimberly 
process, the international regime established to stop the 
illicit traffic of blood diamonds.
    Now, that deadline is a week away. Do you think it is 
important for us to meet this deadline?
    Director Mueller. Senator, I have to say that I am not 
familiar with that particular subject, and I would have to get 
back to you on that.
    Senator Leahy. Well, I ask this because I would like to 
know what some of the consequences to law enforcement or our 
international efforts might be if we don't stop the flow of 
conflict diamonds. You may have to submit your response in a 
classified version, but I would like very much to hear it. As 
much as I can say in an open hearing, I get concerned when I 
see the amount of money that flows from this illicit diamond 
trade into terrorism activity, to say nothing about some of the 
civil wars it fuels.
    Director Mueller. I will say that we share that concern and 
have had investigations on that particular subject, and not 
just on one terrorist group but on several terrorist groups who 
may have benefited from the trade in conflict diamonds.
    Senator Leahy. Newsweek reported last week that the FBI is 
conducting a wide-ranging investigation into the forged 
documents that purported to show Saddam Hussein's regime was 
trying to buy uranium. The article states that the FBI is 
sending agents overseas to investigate the origins of the 
documents to determine who forged them, whether this was part 
of an orchestrated covert operation to build international 
support for the war.
    Is Newsweek right? Has such an investigation been 
initiated?
    Director Mueller. The only thing I can say, Senator, is 
that we are looking at the source of those documents.
    Senator Leahy. Will we be briefed on that when you are 
done?
    Director Mueller. Well, I believe--
    Senator Leahy. He asked innocently.
    Director Mueller. If we are talking about ``we,'' this 
Committee, or Congress, I would imagine Congress and maybe in 
the context of the Senate Intelligence Committee. I would have 
to see when we are done where we go. I can't prejudge.
    Senator Leahy. Do you have any objections to the proposal 
Senator Grassley and I have made the FBI Reform Act to 
eliminate the so-called 14-day rule where members of the Senior 
Executive Service can be subject to disciplinary suspensions 
for no more than 14 days?
    Director Mueller. On that issue, no.
    Senator Leahy. I also have questions regarding the Katrina 
Leung espionage case. The charges are she kept classified 
national security documents that she obtained from an FBI 
handler, who apparently was a long-time lover. You said that 
you firmly believe it is the duty of Congress to engage in its 
oversight function. Would you agree that the Leung case is one 
that would come under our oversight function?
    Director Mueller. Congress's, yes.
    Senator Leahy. This Committee's?
    Director Mueller. That I would have to ponder upon. We did 
keep the Intelligence Committee apprised of what was happening.
    Senator Leahy. Well, would you ponder upon it and let me 
know whether this is something that we could do in our 
oversight function without jeopardizing a criminal 
investigation?
    Director Mueller. Yes, sir.
    Senator Leahy. Secretary Hutchinson, I have a lot of 
questions which I will submit. As I said before, both of you 
have always been available to talk with me individually when I 
have asked. Please get back on some of these answers. And if 
you have questions about our questions, just pick up the phone 
and call me.
    Thank you, Mr. Chairman, and I thank my good friend from 
Ohio for his courtesy, too.
    Chairman Hatch. Thank you, Senator.
    The Senator from Ohio?
    Senator DeWine. Mr. Secretary, Mr. Director, thank you both 
very much for joining us.
    Director Mueller, I have two questions, and they are 
questions that I have asked you, I think, at least in two other 
hearings, and I will probably be asking you these same 
questions at the next hearing. But I think they are very 
important. I think they are important from a historical point 
of view, and I think history is going to judge us, frankly, by 
these two areas, at least these two areas.
    One is the whole area--and you have already touched upon 
this a little bit, but the issue of the computer, where you are 
with your computer system, the whole technology area. And so my 
first question is: Do you have enough money in this area? Do 
you have enough money in 2003? How are things looking in 2004? 
How are we coming along? That is number one, because I think it 
is important that you continue. And if you are not getting 
enough money from this Congress, we need to know that. That is 
number one.
    Number two is the whole change of the culture and the 
mission of the FBI that, of course, we have talked about, a 
change from reactive, looking at the crime after it has 
occurred, trying to solve the crime; to now a great deal of the 
focus of what you do on terrorism and the prevention of 
terrorism, the shifting of people from one mission to the other 
mission. And what I have asked you before is to detail for 
Congress and for the American people not just what you are 
doing, but the other question is what is not getting done. 
Because I think we have to lay that before the American people, 
lay that before Congress, and we have to constantly analyze, 
every 3 months, every 6 months, what we aren't doing. What is 
the FBI not doing that you have been doing in the past so we 
can make value judgments and so that we understand what 
assistance is not being given to local law enforcement, what 
crimes are not being prosecuted.
    You know, we have seen the statistics. We know the numbers. 
But I think it is helpful if the head of the FBI looks us in 
the eye and tells us what aren't you doing.
    Director Mueller. Let me address the first question with 
regard to the funding of our computer systems. We have pending 
a reallocation of funds to address a shortfall with regard to 
our computer systems, and assuming that reallocation is 
approved by the Appropriations Committees, then I believe we 
are where we need to be in 2003, and then we will see in the 
2004 budget. But in our request in the 2004 budget, I do 
believe we have what is necessary to continue our progress in 
renovating our information technology systems.
    Senator DeWine. But let me stop you there. If the 
reallocation in 2003, the year we are in now, is not approved, 
we will not be where we need to be.
    Director Mueller. That is correct.
    Senator DeWine. Let's just be blunt about it.
    Director Mueller. Yes.
    Senator DeWine. You have to have that reallocation--
    Director Mueller. Yes.
    Senator DeWine. --approved to stay on line of progress that 
we would hope to be making.
    Director Mueller. Yes.
    Senator DeWine. And we all know how far behind we are. We 
all know what sorry state of affairs it was when you came into 
office. And we are not blaming you for that, but we all 
understand that. Everybody on this panel has complained about 
your system. So we want to make sure we understand that. You 
have to have that reallocation.
    Director Mueller. We do. The reprogramming of funds that we 
have proposed, we do need that to continue the progress for 
this year.
    Senator DeWine. All right. And you have your request in for 
2004.
    Director Mueller. We do.
    Senator DeWine. And you are telling me that the request you 
have made is adequate?
    Director Mueller. It is adequate.
    Senator DeWine. And we are not going to look back in 2 or 3 
years and say, well, that was just not enough?
    Director Mueller. I do not believe that to be the case. I 
believe that we have looked at what we need to get the job 
done. We have added $137 million, which was unanticipated. It 
was substantial, but I am confident that that is what we need 
to continue our progress.
    Now, I have learned, I have come to learn that as you build 
information technology systems, you need to integrate them. You 
have to make certain you have an overall architecture. You have 
to put the pieces in place. And it is a continuous process. So 
I cannot tell you that I will not come up in 6 months or a year 
and say we are going to have to reprogram other funds or we 
need an additional infusion of funds to handle a particular 
capacity. But what we have tried to do is request the funds 
that we need and we can identify that need, explain that need 
and explain why it is going to advance our progress to bringing 
the FBI into the 21st century when it comes to providing the 
information technology capacity to the agents.
    Senator DeWine. All right. Now, my second question?
    Director Mueller. Your second question as to what we are 
not doing, I will say that, as I believe I testified last year, 
I redirected a number of agents--I think it was 480--from doing 
drug cases to doing counterterrorism. And I know we had 
discussions, Asa and I had discussions, about backfilling, and 
there has been some backfill from the DEA. I don't think it is 
a total backfill. What we tried to do is make certain that with 
that reassignment, realignment of personnel, that no case fell 
through the cracks, and I believe that is the case. But we are 
not doing as many drug cases as we have done in the past.
    We are more selective in doing a number of other varieties 
of cases, for instance, bank robberies. We will rarely do a 
stand-alone bank robbery or a note-pass bank robbery, where we 
did that before.
    In white-collar crime cases, we are focusing on the larger 
white-collar crime cases; where in the past we have done some 
of the smaller white-collar crime cases, we are not doing them.
    We have had to focus our resources on those priorities that 
we have established, whether it be in the national security 
arena or the criminal arena, and make certain that we put our 
assets towards those resources.
    As I have indicated before, every special agent-in-charge 
has the understanding that there should be no counterterrorism 
lead that goes unaddressed. That has meant that agents that are 
assigned to other programs in particular offices are pulled off 
to do issues relating to counterterrorism in a particular field 
office. But what I would like to be able to do in the future is 
be more flexible and more agile in terms of addressing the 
counterterrorist threat in particular communities when it 
arises, but not position agents there to stay there afterwards 
when the threat has been resolved.
    So what we are trying to do is be a much more flexible and 
agile workforce than we have been in the past.
    Senator DeWine. My time is up. Thank you very much.
    Chairman Hatch. Thank you. We have just enough time for 
Senator Durbin to ask his questions.
    Senator Durbin. Thank you very much, Mr. Chairman, and I 
want to thank the two witnesses for coming before the 
Committee.
    Director Mueller, thank you for being here and thanks for 
the update on your technology upgrades. You were kind enough to 
brief me at the headquarters, and it was time well spent. I was 
glad to be there, and I am glad to hear that things are 
improving.
    And, Secretary Hutchinson, thank you for being here and for 
your service to our country.
    I would like to ask two questions, if I can. I hope I have 
the time to get responses to both. One is more complicated than 
the other.
    I have an amendment pending on the floor on the 
appropriation for the Department of Homeland Security which 
relates to this issue, asking the Department for an update on 
their technology improvements and the intraoperability of the 
computers at DHS with the Department of Justice and other 
agencies.
    What I have found, to my chagrin, is that even though 
progress is being made in a lot of agencies, there is no 
communication, technological communication, between these 
departments in a fashion that would facilitate fighting 
terrorism. And I would like you, if you could, to comment on 
progress that is being made between the FBI, Department of 
Justice, and DHS to share information.
    Secretary Hutchinson. Thank you, Senator. First of all, we 
are making that a high priority to fulfill the mandate to share 
information, and there is a continuous flow of information from 
the FBI to Homeland Security and vice-versa.
    It is important that we develop systems that are more 
compatible. Steve Cooper is our chief information office, and 
he is the architect and the one responsible for moving that 
forward. I believe the first priority is to make sure that the 
22 agencies that came on board less than 4 months ago within 
Homeland Security can bring those systems together, and then 
obviously both with the FBI, Department of Justice, and the 
Department of State, to make those systems compatible.
    The information is flowing, but it can flow better when we 
have more compatible systems.
    Senator Durbin. My question is whether there is 
intraoperability between the computer systems at the Department 
of Homeland Security and the FBI. I would just ask that 
question. Can your computers communicate with their computers 
and the other direction?
    Secretary Hutchinson. Well, we do on watch lists. We have 
that capacity that we have that information.
    Now, there are limitations. Obviously, they have 
information that cannot be shared for counterintelligence 
reasons broadly. Obviously, we can receive that information, 
but, for example, there is some information they might have 
that our inspectors in the field at the points of entry might 
not need.
    Senator Durbin. Oh, understood. Understood. There are 
certain areas where, for a variety of reasons, you wouldn't 
want to. But you are telling me that capacity is being 
developed.
    I know I don't have a lot of time, but I want to move to 
another issue that really concerns me greatly. There was 
substantial progress made yesterday in Iraq, obviously, with 
the killing of Saddam Hussein's two sons. This morning's paper 
reported that one of the reasons why there is an improvement 
there is the gathering of information from the Iraqis is 
starting to be a lot more effective. There is more cooperation.
    I have learned the difference between law enforcement and 
intelligence gathering. You deal with communities in a 
different respect. And I have had--Director Mueller, I think I 
have told you, I have had one of your agents from a faraway 
post call me and say we have got to learn this, we have to 
learn that intelligence gathering is a lot different than just 
flat-out law enforcement.
    You can go in and find technical violations and criminal 
problems to a fare-thee-well. That isn't going to build up 
trust and understanding and communication and dialogue for 
sharing information for intelligence purposes.
    And so several months ago, the Department of Justice 
decided to initiate this interview project profiling the 
visitors to this country from Muslim Middle Eastern nations to 
come in and to be interviewed as to their status.
    Now, I have asked for numbers as to how many were called 
in, and I can't get an exact number, but it appears to be 
somewhere in the 80,000 to 100,000 range of people who were 
called in from a variety of different countries. And it is my 
understanding that some 13,000, because of reporting for the 
interview, were subsequently deported. They were found to be in 
violation of their immigration status.
    I raise that question because, obviously, as a Senator from 
a very diverse State, I have heard from a lot of these 
populations saying this is just flat-out discriminatory. These 
people were cooperating, came in for the interview, were ready 
to help in any way they could, and were found to be in 
technical violation and deported.
    Can I ask both of you if you would comment on this reaction 
from them, in light of our need to gather more intelligence 
from these communities and to work more closely with them, 
whether or not we did something that might have been 
counterproductive? We basically said if you cooperate and come 
forward, be careful, because we are going to fly-speck and find 
out if you are in technical violation, and if you are, you are 
gone.
    If I could ask Director Mueller and Secretary Hutchinson to 
respond to that.
    Director Mueller. We undertook a program in advance of 
hostilities in Iraq of reaching out to Iraqi Americans and 
interviewing them. And the numbers there, I think we 
interviewed close to 10,000 across the country. And I would 
say--I have talked to a number of special agents-in-charge. I 
have talked to members of the Muslim community, the Iraqi 
community, and the fact of the matter is the interviews went 
exceptionally well.
    I am not aware of circumstances where, as a result of an 
interview and our reaching out, someone was deported. I will 
tell you that the vast, vast, vast majority of persons 
interviewed were happy to be interviewed and wanted to provide 
information. The fact of the matter is most of them were 
refugees from the Saddam Hussein regime, and they had 
information and intelligence, and that was helpful to our 
troops overseas. We had in excess of 200 reports that were 
funneled to our troops overseas about the location of bunkers, 
weapons, communications facilities. And so those interviews I 
think went exceptionally well.
    There are going to be individuals who resent that, but the 
vast majority of the interviews, as I have heard from office to 
office to office, enabled us to develop intelligence and to 
develop a relationship that had not previously been there.
    Secretary Hutchinson. I would just second the importance of 
the outreach. Our ICE agents and, as well, our Customs and 
Border Protection have engaged in outreach to communicate to 
those communities that might be impacted by that. Information 
is critically important, explaining why we are doing this.
    You raise the issue of when they are out of compliance, 
what do you do? We want to make sure--obviously, we have an 
obligation if somebody is out of compliance to address it, but 
they are given a notice to appear. They are processed. It is 
not like they are immediately detained in most circumstances.
    And so we try to treat each one fairly and appropriately 
with good information. We have other investigative techniques 
from Operation Tarmac, in which we went into critical 
infrastructure facilities looking at benchmark checks. There 
were questions raised that adversely impacted the Hispanic 
community. So we don't want that adverse impact, but we do have 
an obligation to take care of those that might be in violation 
and pursue those in accordance with the law.
    Senator Durbin. Thanks.
    Mr. Chairman, I will submit my other questions for the 
record. Thank you very much.
    Chairman Hatch. Well, thank you, Senator. I appreciate it.
    I promised I would let you go at 1:30. Let me just close 
with this: I want to state that I want to follow up in writing 
on an important issue that I am personally interested in, and I 
think it is important for the FBI to answer, and that issue is 
the death of Kenneth Trinidu. Now, the circumstances of Mr. 
Trinidu's death continue to raise questions despite numerous 
attempts to find out what happened. I made several inquiries 
about this case myself to Attorney General Reno, and a grand 
jury was convened, but it did not produce an indictment. An 
Inspector General's report was produced. A private lawsuit 
resulted in a finding of suicide. Nonetheless, Mr. Trinidu's 
family continues to raise questions that to me are indeed 
troubling.
    So I look forward to your answers to the written questions 
on this important subject, and I hope that you can get back to 
me on that, if you will.
    Director Mueller. Yes, sir.
    Chairman Hatch. Well, you have been very patient. We 
apologize that it took so long to get you here. We will have 
others submit questions in writing, and if you can answer them 
as quickly as possible, we would be very appreciative.
    So, with that, we will recess until further notice.
    [Whereupon, at 1:32 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
    [Additional material is being retained in the Committee 
files.]
[GRAPHIC] [TIFF OMITTED] 91565.091

[GRAPHIC] [TIFF OMITTED] 91565.002

[GRAPHIC] [TIFF OMITTED] 91565.003

[GRAPHIC] [TIFF OMITTED] 91565.004

[GRAPHIC] [TIFF OMITTED] 91565.005

[GRAPHIC] [TIFF OMITTED] 91565.006

[GRAPHIC] [TIFF OMITTED] 91565.007

[GRAPHIC] [TIFF OMITTED] 91565.008

[GRAPHIC] [TIFF OMITTED] 91565.009

[GRAPHIC] [TIFF OMITTED] 91565.910

[GRAPHIC] [TIFF OMITTED] 91565.911

[GRAPHIC] [TIFF OMITTED] 91565.912

[GRAPHIC] [TIFF OMITTED] 91565.913

[GRAPHIC] [TIFF OMITTED] 91565.914

[GRAPHIC] [TIFF OMITTED] 91565.915

[GRAPHIC] [TIFF OMITTED] 91565.916

[GRAPHIC] [TIFF OMITTED] 91565.917

[GRAPHIC] [TIFF OMITTED] 91565.918

[GRAPHIC] [TIFF OMITTED] 91565.919

[GRAPHIC] [TIFF OMITTED] 91565.020

[GRAPHIC] [TIFF OMITTED] 91565.021

[GRAPHIC] [TIFF OMITTED] 91565.022

[GRAPHIC] [TIFF OMITTED] 91565.023

[GRAPHIC] [TIFF OMITTED] 91565.024

[GRAPHIC] [TIFF OMITTED] 91565.025

[GRAPHIC] [TIFF OMITTED] 91565.026

[GRAPHIC] [TIFF OMITTED] 91565.027

[GRAPHIC] [TIFF OMITTED] 91565.028

[GRAPHIC] [TIFF OMITTED] 91565.029

[GRAPHIC] [TIFF OMITTED] 91565.030

[GRAPHIC] [TIFF OMITTED] 91565.031

[GRAPHIC] [TIFF OMITTED] 91565.032

[GRAPHIC] [TIFF OMITTED] 91565.033

[GRAPHIC] [TIFF OMITTED] 91565.034

[GRAPHIC] [TIFF OMITTED] 91565.035

[GRAPHIC] [TIFF OMITTED] 91565.036

[GRAPHIC] [TIFF OMITTED] 91565.037

[GRAPHIC] [TIFF OMITTED] 91565.038

[GRAPHIC] [TIFF OMITTED] 91565.039

[GRAPHIC] [TIFF OMITTED] 91565.040

[GRAPHIC] [TIFF OMITTED] 91565.041

[GRAPHIC] [TIFF OMITTED] 91565.042

[GRAPHIC] [TIFF OMITTED] 91565.043

[GRAPHIC] [TIFF OMITTED] 91565.044

[GRAPHIC] [TIFF OMITTED] 91565.045

[GRAPHIC] [TIFF OMITTED] 91565.046

[GRAPHIC] [TIFF OMITTED] 91565.047

[GRAPHIC] [TIFF OMITTED] 91565.048

[GRAPHIC] [TIFF OMITTED] 91565.049

[GRAPHIC] [TIFF OMITTED] 91565.050

[GRAPHIC] [TIFF OMITTED] 91565.051

[GRAPHIC] [TIFF OMITTED] 91565.052

[GRAPHIC] [TIFF OMITTED] 91565.053

[GRAPHIC] [TIFF OMITTED] 91565.054

[GRAPHIC] [TIFF OMITTED] 91565.055

[GRAPHIC] [TIFF OMITTED] 91565.056

[GRAPHIC] [TIFF OMITTED] 91565.057

[GRAPHIC] [TIFF OMITTED] 91565.058

[GRAPHIC] [TIFF OMITTED] 91565.059

[GRAPHIC] [TIFF OMITTED] 91565.060

[GRAPHIC] [TIFF OMITTED] 91565.061

[GRAPHIC] [TIFF OMITTED] 91565.062

[GRAPHIC] [TIFF OMITTED] 91565.063

[GRAPHIC] [TIFF OMITTED] 91565.064

[GRAPHIC] [TIFF OMITTED] 91565.065

[GRAPHIC] [TIFF OMITTED] 91565.066

[GRAPHIC] [TIFF OMITTED] 91565.067

[GRAPHIC] [TIFF OMITTED] 91565.068

[GRAPHIC] [TIFF OMITTED] 91565.069

[GRAPHIC] [TIFF OMITTED] 91565.070

[GRAPHIC] [TIFF OMITTED] 91565.071

[GRAPHIC] [TIFF OMITTED] 91565.072

[GRAPHIC] [TIFF OMITTED] 91565.073

[GRAPHIC] [TIFF OMITTED] 91565.074

[GRAPHIC] [TIFF OMITTED] 91565.075

[GRAPHIC] [TIFF OMITTED] 91565.076

[GRAPHIC] [TIFF OMITTED] 91565.077

[GRAPHIC] [TIFF OMITTED] 91565.078

[GRAPHIC] [TIFF OMITTED] 91565.079

[GRAPHIC] [TIFF OMITTED] 91565.080

[GRAPHIC] [TIFF OMITTED] 91565.081

[GRAPHIC] [TIFF OMITTED] 91565.082

[GRAPHIC] [TIFF OMITTED] 91565.083

[GRAPHIC] [TIFF OMITTED] 91565.084

[GRAPHIC] [TIFF OMITTED] 91565.085

[GRAPHIC] [TIFF OMITTED] 91565.086

[GRAPHIC] [TIFF OMITTED] 91565.087

[GRAPHIC] [TIFF OMITTED] 91565.088

[GRAPHIC] [TIFF OMITTED] 91565.089

[GRAPHIC] [TIFF OMITTED] 91565.090

[GRAPHIC] [TIFF OMITTED] 91565.091

[GRAPHIC] [TIFF OMITTED] 91565.092

[GRAPHIC] [TIFF OMITTED] 91565.093

[GRAPHIC] [TIFF OMITTED] 91565.094

[GRAPHIC] [TIFF OMITTED] 91565.095

[GRAPHIC] [TIFF OMITTED] 91565.096

[GRAPHIC] [TIFF OMITTED] 91565.097

[GRAPHIC] [TIFF OMITTED] 91565.098

[GRAPHIC] [TIFF OMITTED] 91565.099

[GRAPHIC] [TIFF OMITTED] 91565.100

[GRAPHIC] [TIFF OMITTED] 91565.191

[GRAPHIC] [TIFF OMITTED] 91565.102

[GRAPHIC] [TIFF OMITTED] 91565.103

[GRAPHIC] [TIFF OMITTED] 91565.104

[GRAPHIC] [TIFF OMITTED] 91565.105

[GRAPHIC] [TIFF OMITTED] 91565.106

[GRAPHIC] [TIFF OMITTED] 91565.107

[GRAPHIC] [TIFF OMITTED] 91565.108

[GRAPHIC] [TIFF OMITTED] 91565.109

[GRAPHIC] [TIFF OMITTED] 91565.110

[GRAPHIC] [TIFF OMITTED] 91565.111

[GRAPHIC] [TIFF OMITTED] 91565.112

[GRAPHIC] [TIFF OMITTED] 91565.113

[GRAPHIC] [TIFF OMITTED] 91565.114

[GRAPHIC] [TIFF OMITTED] 91565.115

[GRAPHIC] [TIFF OMITTED] 91565.116

[GRAPHIC] [TIFF OMITTED] 91565.117

[GRAPHIC] [TIFF OMITTED] 91565.118

[GRAPHIC] [TIFF OMITTED] 91565.119

[GRAPHIC] [TIFF OMITTED] 91565.120

[GRAPHIC] [TIFF OMITTED] 91565.121

[GRAPHIC] [TIFF OMITTED] 91565.122

[GRAPHIC] [TIFF OMITTED] 91565.123

[GRAPHIC] [TIFF OMITTED] 91565.124

[GRAPHIC] [TIFF OMITTED] 91565.125

[GRAPHIC] [TIFF OMITTED] 91565.126

[GRAPHIC] [TIFF OMITTED] 91565.127

[GRAPHIC] [TIFF OMITTED] 91565.128

[GRAPHIC] [TIFF OMITTED] 91565.129

[GRAPHIC] [TIFF OMITTED] 91565.130

[GRAPHIC] [TIFF OMITTED] 91565.131

[GRAPHIC] [TIFF OMITTED] 91565.132

[GRAPHIC] [TIFF OMITTED] 91565.133

[GRAPHIC] [TIFF OMITTED] 91565.134

[GRAPHIC] [TIFF OMITTED] 91565.135

[GRAPHIC] [TIFF OMITTED] 91565.136

[GRAPHIC] [TIFF OMITTED] 91565.137

[GRAPHIC] [TIFF OMITTED] 91565.138

[GRAPHIC] [TIFF OMITTED] 91565.139

[GRAPHIC] [TIFF OMITTED] 91565.140

[GRAPHIC] [TIFF OMITTED] 91565.141

[GRAPHIC] [TIFF OMITTED] 91565.142

[GRAPHIC] [TIFF OMITTED] 91565.143

[GRAPHIC] [TIFF OMITTED] 91565.144

[GRAPHIC] [TIFF OMITTED] 91565.145

[GRAPHIC] [TIFF OMITTED] 91565.146

[GRAPHIC] [TIFF OMITTED] 91565.147

[GRAPHIC] [TIFF OMITTED] 91565.148

[GRAPHIC] [TIFF OMITTED] 91565.149

[GRAPHIC] [TIFF OMITTED] 91565.150

[GRAPHIC] [TIFF OMITTED] 91565.151

[GRAPHIC] [TIFF OMITTED] 91565.152

[GRAPHIC] [TIFF OMITTED] 91565.153

[GRAPHIC] [TIFF OMITTED] 91565.154

[GRAPHIC] [TIFF OMITTED] 91565.155

[GRAPHIC] [TIFF OMITTED] 91565.156

[GRAPHIC] [TIFF OMITTED] 91565.157

[GRAPHIC] [TIFF OMITTED] 91565.158

[GRAPHIC] [TIFF OMITTED] 91565.159

[GRAPHIC] [TIFF OMITTED] 91565.160

[GRAPHIC] [TIFF OMITTED] 91565.161

[GRAPHIC] [TIFF OMITTED] 91565.162

[GRAPHIC] [TIFF OMITTED] 91565.163

[GRAPHIC] [TIFF OMITTED] 91565.164

[GRAPHIC] [TIFF OMITTED] 91565.165

[GRAPHIC] [TIFF OMITTED] 91565.166

[GRAPHIC] [TIFF OMITTED] 91565.167

[GRAPHIC] [TIFF OMITTED] 91565.168

[GRAPHIC] [TIFF OMITTED] 91565.169

[GRAPHIC] [TIFF OMITTED] 91565.170

[GRAPHIC] [TIFF OMITTED] 91565.171

[GRAPHIC] [TIFF OMITTED] 91565.172

[GRAPHIC] [TIFF OMITTED] 91565.173

[GRAPHIC] [TIFF OMITTED] 91565.174

[GRAPHIC] [TIFF OMITTED] 91565.175

[GRAPHIC] [TIFF OMITTED] 91565.176

[GRAPHIC] [TIFF OMITTED] 91565.177

[GRAPHIC] [TIFF OMITTED] 91565.178

[GRAPHIC] [TIFF OMITTED] 91565.179

[GRAPHIC] [TIFF OMITTED] 91565.180

[GRAPHIC] [TIFF OMITTED] 91565.181

[GRAPHIC] [TIFF OMITTED] 91565.182

[GRAPHIC] [TIFF OMITTED] 91565.183

[GRAPHIC] [TIFF OMITTED] 91565.184

[GRAPHIC] [TIFF OMITTED] 91565.185

[GRAPHIC] [TIFF OMITTED] 91565.186

[GRAPHIC] [TIFF OMITTED] 91565.187

[GRAPHIC] [TIFF OMITTED] 91565.188

[GRAPHIC] [TIFF OMITTED] 91565.189

[GRAPHIC] [TIFF OMITTED] 91565.190

[GRAPHIC] [TIFF OMITTED] 91565.191

[GRAPHIC] [TIFF OMITTED] 91565.192

                                 <all>

</pre></body></html>
